TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Use of Return on Investment Information
                  in Managing Tax Enforcement Resources
                            Could Be Improved



                                      September 23, 2013

                              Reference Number: 2013-10-104




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE USE OF RETURN ON INVESTMENT                       calculations provide an incomplete picture and
INFORMATION IN MANAGING TAX                           understate the actual results of the enforcement
ENFORCEMENT RESOURCES COULD                           programs analyzed by the IRS.
BE IMPROVED                                           TIGTA also found that the IRS continues to be
                                                      unable to measure actual revenue from new
                                                      enforcement initiatives funded in prior years.
Highlights                                            TIGTA previously recommended that the IRS
                                                      develop methods to track actual performance
Final Report issued on                                results of initiatives. Although IRS management
September 23, 2013                                    stated in response to this recommendation that
                                                      they were working to develop a methodology to
Highlights of Reference Number: 2013-10-104           determine actual revenue collected from specific
to the Internal Revenue Service Deputy                enforcement initiatives, TIGTA determined that
Commissioner for Operations Support and the           the IRS has not yet made significant progress in
Office of the Deputy Commissioner for Services        this effort.
and Enforcement.
                                                      WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                      TIGTA recommended that the Office of the
Return on investment (ROI) information,               Deputy Commissioner for Services and
including both estimated ROI for new                  Enforcement should develop procedures to
enforcement initiatives and cost/benefit              assist in guiding the use of enforcement
calculations based on actual program results          program cost/benefit information in comparing
and costs, is an important tool available to assist   resource allocation options. Also, the Chief
IRS senior executives in managing enforcement         Financial Officer should conduct an analysis to
resources. IRS budget reductions heighten the         determine whether there are potential variations
importance of having comprehensive and                for allocation of enforcement revenue from the
reliable data to help make informed resource          current cost/benefit model that would provide
allocation decisions to ensure that every tax         beneficial information to the IRS. Finally, the
dollar is spent wisely.                               IRS should conduct a feasibility analysis to
                                                      identify the steps necessary to measure actual
WHY TIGTA DID THE AUDIT                               revenue for new enforcement initiatives.
This audit was initiated to review the IRS’s use      In their response to the report, IRS officials
of ROI data in managing its enforcement               substantially agreed with our recommendations.
resources and evaluate the IRS’s progress in          The IRS plans to consider the feasibility of
developing a methodology to measure actual            developing procedures to assist in guiding the
revenue collected from specific new                   use of enforcement program cost/benefit
enforcement initiatives included in its annual        information when a longer-term research effort is
budget requests.                                      complete and review the current cost/benefit
                                                      model with an emphasis on analyzing whether
WHAT TIGTA FOUND
                                                      the IRS can update the allocation of
The IRS’s use of cost/benefit information in          enforcement revenue to a specific enforcement
managing its enforcement resources could be           program. The IRS also plans to document the
significantly improved. Specifically, although        current challenges that exist in estimating actual
cost/benefit information is considered in making      revenue for new enforcement initiatives and
resource allocation decisions, the IRS does not       conduct an analysis to determine the feasibility
document how or to what extent it uses the            of overcoming these challenges within existing
information and has no policies or procedures to      legislation, systems, and processes.
guide this process.
In addition, TIGTA’s review of the IRS
cost/benefit statistics identified that the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                OFFICE OF THE DEPUTY COMMISSIONER FOR SERVICES
                AND ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Use of Return on Investment Information in
                             Managing Tax Enforcement Resources Could Be Improved
                             (Audit # 201210035)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) use of
 return on investment data in managing its enforcement resources and the IRS’s progress in
 developing a methodology to measure actual revenue collected from specific new enforcement
 initiatives included in its annual budget requests. This review is included in our Fiscal Year
 2013 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                       The Use of Return on Investment Information in Managing Tax
                               Enforcement Resources Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Return on Investment Information Should Be Revised to Better
          Manage Enforcement Resources................................................................... Page 3
                    Recommendations 1 and 2: ................................................ Page 5

          Additional Efforts Are Still Needed to Measure Actual Revenue
          for New Enforcement Initiatives ................................................................... Page 5
                    Recommendation 3:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Management’s Response to the Draft Report ...................... Page 12
        The Use of Return on Investment Information in Managing Tax
                Enforcement Resources Could Be Improved




                       Abbreviations

CFO              Chief Financial Officer
FY               Fiscal Year
GAO              Government Accountability Office
IRS              Internal Revenue Service
ROI              Return on Investment
TIGTA            Treasury Inspector General for Tax Administration
                    The Use of Return on Investment Information in Managing Tax
                            Enforcement Resources Could Be Improved




                                             Background

The Internal Revenue Service (IRS) is the largest component of the Department of the Treasury
and has primary responsibility for administering the Federal tax system. The IRS strives to
enforce the tax laws fairly and efficiently while balancing service and education to promote
voluntary compliance and reduce taxpayer burden. The IRS’s role is unique within the Federal
Government in that it collects the revenue that funds the Government.
The IRS has prioritized the focus of its operations under two strategic goals: improving service
to make voluntary compliance easier and enforcing the law to ensure that everyone meets their
obligations to pay taxes. To assist it in managing its enforcement resources, the Chief Financial
Officer (CFO) annually calculates return on investment (ROI) performance measures for seven
of the IRS’s enforcement program areas. These performance measures are known as cost/benefit
calculations and differ significantly from the ROI estimates of enforcement initiatives proposed
in the IRS’s annual budget submission.1 The cost/benefit performance measures are defined as
the ratio of program revenues to full program costs.
Having timely and relevant data for enforcement                    In FY 2012, the IRS had
activities is critical to the IRS’s ability to effectively and     $5.3 billion available for
efficiently manage its enforcement program. In Fiscal              enforcement activities,
Year (FY) 2012, the IRS had funding of $5.3 billion            examined  1.7 million tax returns,
                                                               and closed 7.46 million taxpayer
available for enforcement activities, examined                      delinquent accounts.
1.7 million tax returns, and closed 7.46 million taxpayer
delinquent accounts.
The IRS’s annual Congressional Budget Submission contains the IRS’s program and budget
decisions including proposals to increase funding for programs or initiatives the IRS believes
will improve its ability to address taxpayer noncompliance. To justify these initiatives, the IRS
estimates the ROI for each new enforcement initiative included in its annual budget submissions.
The ROI is calculated by estimating the marginal revenues the initiatives will produce annually
and dividing this amount by the estimated annual incremental cost of the initiatives.
When the IRS prepares its annual budget request, it also includes an overall achieved ROI for the
IRS using revenue collected from its enforcement programs and budget data. For example, the
IRS reported an overall ROI ratio of $4.2 to $1 in its FY 2014 budget request.


1
 The ROI figures published for proposed enforcement initiatives in the IRS’s annual budget are an estimate of the
marginal increase in revenue potential of hiring additional employees in the proposed program area. The
cost/benefit performance measures take into account the full costs of existing program area resources and are based
on actual revenues.


                                                                                                             Page 1
                   The Use of Return on Investment Information in Managing Tax
                           Enforcement Resources Could Be Improved



The IRS’s use of estimated ROI information to justify its proposed budget increases for
enforcement initiatives has been the subject of several Treasury Inspector General for Tax
Administration (TIGTA) and Government Accountability Office (GAO) reports in previous
years. In September 2005, TIGTA reported that actual revenues attributable to specific increases
in IRS resources funded by Congress could not be identified and recommended that the IRS
develop a methodology to evaluate the results of increased investments in enforcement
activities.2 In June 2009, the GAO also recommended that the IRS “…take steps to develop
ROIs for IRS’s enforcement programs using actual revenue and full cost data and compare the
actual ROIs to the projected ROIs included in the budget requests.”3
The CFO is responsible for the management of all IRS financial resources, including
administrative and revenue accounting. The Office of Research, Analysis, and Statistics has a
primary responsibility to provide data and analyses on estimated enforcement revenue. The CFO
is responsible for calculating the estimated ROI for proposed enforcement initiatives.
This review was performed at the offices of the Chief Financial Officer; Large Business and
International Division; Research, Analysis, and Statistics; Small Business/Self-Employed
Division; and Wage and Investment Division in Washington, D.C., during the period
October 2012 through April 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




2
  TIGTA, Ref. No. 2005-10-159, A Better Model Is Needed to Project the Return on Additional Investments in Tax
Enforcement pp. 11-12 (Sept. 2005).
3
  GAO, GAO-09-754, Internal Revenue Service: Review of the Fiscal Year 2010 Budget Request p. 6
(June 2009).


                                                                                                         Page 2
                 The Use of Return on Investment Information in Managing Tax
                         Enforcement Resources Could Be Improved




                                Results of Review

Return on Investment Information Should Be Revised to Better
Manage Enforcement Resources
The allocation of enforcement resources represents an increasingly complex challenge for the
IRS in light of significant reductions in its budget. In FYs 2011 and 2012, the IRS budgets were
approximately $12.1 billion and $11.8 billion, respectively. In FY 2013, the IRS budget was
also approximately $11.8 billion. However, mandatory spending reductions, including
approximately $618 million in reductions implemented as part of the sequestration and
rescission, reduced the IRS’s FY 2013 budget to approximately $11.2 billion. Thus, the IRS
must continue to look for ways to maximize the use of its resources.
IRS policy states that IRS officials with managerial or executive responsibilities must have
useful information to make decisions and plan future programs and activities. The use of
cost/benefit information assists senior management in comparing options, ensuring efficiency is
considered in the decisionmaking process, and making informed choices. In FY 2012, the IRS
had funding of $5.3 billion available for enforcement activities.
We found that the IRS’s use of cost/benefit information in managing its enforcement resources
could be significantly improved. Specifically, although the IRS informed us that it broadly
considers cost/benefit information in its business planning, it does not document how or to what
extent it uses cost/benefit information in allocating its resources among its various enforcement
programs, what information it uses, or what other factors are considered. The IRS also has not
developed any policies or procedures to guide this critical process and has not established any
requirement that business plan decisions based on cost/benefit information be fully documented.
The CFO annually prepares cost/benefit calculations for the IRS’s seven major enforcement
program areas including Field Examination, Field Collection, and Automated Underreporter.
However, the IRS was unable to provide any evidence that this information was used by senior
executives in allocating resources. Additionally, our review of these calculations found that they
provide an incomplete and potentially misleading picture of the actual results of these programs.
For example, the process used for calculating Field Examination cost/benefit information does
not consider the significant enforcement revenue collected in Field Examination cases requiring
subsequent involvement by the Appeals function. In FY 2012, $4.2 billion of all enforcement
revenue collected required involvement by the Appeals function. However, none of revenue
from this $4.2 billion that was related to the field examination that initiated the assessment was
included in the cost/benefit ratio, resulting in an understated ratio for programs such as Field
Examination.

                                                                                            Page 3
                  The Use of Return on Investment Information in Managing Tax
                          Enforcement Resources Could Be Improved



We further found that additional work is needed to properly allocate enforcement revenue
collected during the balance due notice process. Although the IRS identified that it collected
approximately $24.4 billion in enforcement revenue in FY 2012 associated with the issuance to
taxpayers of over 50 different types of balance due notices, it did not allocate this revenue to the
enforcement program responsible for the assessment resulting in the balance due notice, as
applicable. These notices related to corrections of math errors, adjustments to tax credits, audit
adjustments, and past-due liabilities. Because the IRS also did not report the amount of revenue
applicable to each of these types of notices, we were unable to determine how this revenue
relates to enforcement programs such as Field and Correspondence Examination. The CFO
determined that in FY 2012, almost 49 percent of all enforcement revenue was collected during
the balance due notice process.
In an attempt to better match program costs and results, the CFO attributes revenue collected to a
particular enforcement program only if the revenue was collected at the close of the enforcement
action being measured. Additionally, business rules developed by the CFO stress the need to
avoid double counting of revenue. The IRS also informed us that a separate cost/benefit analysis
of the IRS Appeals function was not performed because the Appeals function is tasked with
impartially deciding on taxpayer liability, and the performance of a cost/benefit analysis could be
viewed as an attempt to reduce the Appeals function’s impartiality.
We believe that the usefulness of the IRS’s cost/benefit information for individual enforcement
programs could be significantly improved, without compromising the integrity of the data, by
allocating enforcement revenue collected after the Appeals process and/or through the balance
due notice process to the specific enforcement program which initially produced the assessment,
where applicable. To ensure matching of cost and revenues, the cost of the subsequent appeal
and/or balance due notice processing should also be allocated.
The IRS further informed us that its enforcement resource allocation process is a highly complex
process that considers multiple factors in addition to the cost/benefit information it produces of
the enforcement program. For example, when allocating resources to examination programs, the
IRS’s policy stresses the need to maintain fair and balanced coverage, assuring all taxpayers of
equitable consideration as well as making the most efficient use of staffing.
We agree that fairness to all taxpayers is of paramount concern. However, additional emphasis
on cost/benefit data could also enhance the efficient use of the IRS’s limited resources. The
GAO reported that the IRS could significantly increase revenues by better allocating
enforcement resources.4 It also reported that incremental shifts in IRS Examination function
resources from lower revenue generating functions to higher revenue generating functions could
significantly increase the revenue the IRS collects.

4
 GAO, GAO-13-151, Tax Gap: IRS Could Significantly Increase Revenues by Better Targeting Enforcement
Resources p. 10 (Dec. 2012).


                                                                                                   Page 4
                 The Use of Return on Investment Information in Managing Tax
                         Enforcement Resources Could Be Improved



Improvements in the cost/benefit management information used by the IRS, in conjunction with
increased documentation of the factors used in the resource planning decisionmaking process,
may lead to additional revenue being collected. Additionally, it would allow the IRS to more
clearly explain to stakeholders the factors taken into consideration when prioritizing the use of
compliance resources.

Recommendations
Recommendation 1: The Office of the Deputy Commissioner for Services and Enforcement
should develop procedures to assist in guiding the use of enforcement program cost/benefit
information, along with consideration of other factors such as balanced measures and coverage,
in comparing resource allocation options and allocating staff to the IRS’s enforcement programs.
The procedures should also require the IRS to document the process used in performing this
allocation.
       Management’s Response: While IRS management agreed with the need to take
       cost-effectiveness into account when allocating resources, they stated that
       cost-effectiveness needs to be evaluated at the margin, instead of on average, and should
       reflect all benefits and all costs. Estimating all of the necessary elements is complex, but
       a research effort to do this is underway. The IRS will consider the feasibility of
       developing procedures in this area when the longer-term research effort is complete.
Recommendation 2: The CFO should conduct an analysis to determine whether there are
potential variations for allocation of enforcement revenue from the current cost/benefit model
that would provide beneficial information to the IRS. For example, variations could include
allocating 1) enforcement revenue collected through the balance due notice process and
2) enforcement revenue collected after the Appeals process to the specific enforcement program
which initially produced the assessment, where applicable.
       Management’s Response: The IRS agreed with this recommendation. The CFO
       will review the current cost/benefit model with an emphasis on analyzing whether the
       IRS can update the allocation of enforcement revenue to a specific enforcement program.

Additional Efforts Are Still Needed to Measure Actual Revenue for
New Enforcement Initiatives
The IRS has made progress in expanding the information it reports to external stakeholders
regarding the achieved ROI of its enforcement efforts. For example, the IRS reported in its
FY 2014 annual budget request that it achieved a total Service-wide ROI ratio of $4.20 to $1.
For the first time, the IRS also reported summary level ROI information for the Examination,
Collection, and Automated Underreporter programs in its FY 2014 Budget Request to Congress.
The development of additional ROI information related to enforcement program areas should

                                                                                             Page 5
                   The Use of Return on Investment Information in Managing Tax
                           Enforcement Resources Could Be Improved



assist the IRS in communicating with external stakeholders. This is especially important in the
current economic environment and continued budget constraints.
However, the IRS continues to be unable to measure actual revenue from individual enforcement
initiatives. Enforcement initiatives are increases in IRS resources used to focus on specific tax
compliance issues such as underreporting of tax associated with international activities or
noncompliance among business and high-income taxpayers. In 2011, TIGTA recommended that
the IRS develop methods to track actual performance results of initiatives.5 Although IRS
management stated in response to this recommendation that they were working to develop a
methodology to determine actual revenue collected from specific enforcement initiatives, we
determined that the IRS has not yet made significant progress in this effort.
The CFO prepared an internal analysis of the cumulative revenue generated from new
enforcement initiatives included in the FYs 2009 and 2010 budget submissions. This analysis
estimated the effects of enforcement initiatives introduced in FYs 2009 and 2010 on revenue
collected by the IRS during FY 2011. For example, the IRS estimated that its FYs 2009
and 2010 new enforcement initiatives would collectively generate an increase in revenue
collected during FY 2011 of $2.9 billion. The IRS collected $48.9 billion in enforcement
revenue during FY 2009 and $55.2 billion during FY 2011, for an increase of approximately
$6.3 billion, far surpassing the expected increase in collections of $2.9 billion. However, this
calculation is not refined enough to measure the revenue generated from individual enforcement
initiatives, and as the IRS itself notes, it does not have the ability to separate the revenue effect of
initiative hiring from macroeconomic factors such as the economy or implementation of
legislative proposals.
The IRS last received additional funding for new enforcement initiatives in its FY 2010 budget
request. For the largest of these initiatives, the IRS received approximately $128 million to hire
784 employees to address the underreporting of tax associated with international transactions as
well as domestic taxpayers involved with offshore activities. However, IRS officials responsible
for these resources stated they have not implemented any process to track actual revenues
generated by this hiring initiative. The officials informed us that a barrier in measuring actual
revenues from hiring initiatives is the difficulty in tracking and allocating revenues generated
from a case which is worked on by multiple employees.
In addition, these officials cited barriers to tracking the revenue produced by each initiative. For
example, IRS management stated that new employees hired under a new enforcement initiative
may not immediately work on cases relating to that initiative due to the need to fully train the
new employees and the potential complexity of the tax cases focused on through the new
initiative.

5
 TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With Attrition and
Workload Demands pp. 7-9 (May 2011).


                                                                                                         Page 6
                 The Use of Return on Investment Information in Managing Tax
                         Enforcement Resources Could Be Improved



The IRS also cited potential legislative prohibitions surrounding the use of enforcement data in
measuring employee performance. Despite these barriers, the IRS informed us that measuring
revenue from specific enforcement initiatives remains a goal towards which they believe they are
making progress. However, the IRS could not provide us with documentation that a formal
analysis had been performed to research the steps necessary to directly measure actual revenue
for new enforcement initiatives or that an estimation methodology, such as statistical sampling,
was considered. Statistical sampling uses random samples to make a statement about the
population from which the sample was selected.

Recommendation
Recommendation 3: The IRS should perform a feasibility analysis to identify the steps
necessary to measure actual revenue for new enforcement initiatives. As part of this analysis, the
IRS should evaluate both directly measuring actual revenue for new enforcement initiatives and
utilizing an estimation methodology, such as statistical sampling, to determine this revenue. This
analysis should be documented, and for any viable options that can be implemented, the IRS
should identify interim and long-term steps, including a timeline for completion of these steps.
       Management’s Response: The IRS agreed with this recommendation. The
       Research, Analysis, and Statistics organization, in coordination with the CFO, will
       document the current challenges that exist in estimating actual revenue for new
       enforcement initiatives. An analysis will be conducted to determine the feasibility of
       overcoming these challenges within existing legislation, systems, and processes. The IRS
       will then evaluate whether the viable options can be implemented with a minimal
       additional cost and within existing budget resources. For options that can be
       implemented, the IRS will identify interim and long-term steps, including a timeline.




                                                                                           Page 7
                The Use of Return on Investment Information in Managing Tax
                        Enforcement Resources Could Be Improved



                                                                                   Appendix I

       Detailed Objectives, Scope, and Methodology

Our overall objectives were to review the IRS’s use of ROI data in managing its enforcement
resources and the IRS’s progress in developing a methodology to measure actual revenue
collected from specific new enforcement initiatives included in its annual budget requests. To
accomplish our objectives, we:
I.     Determined how ROI data are used by the IRS to allocate its enforcement resources
       among various activities.
       A. Interviewed key CFO and enforcement management personnel to determine how ROI
          data are used in determining the allocation of resources to its various enforcement
          programs.
       B. Reviewed any procedures the IRS had developed to guide the use of ROI data in the
          allocation of enforcement resources.
       C. Determined the methodology used for calculating ROI among various enforcement
          programs.
       D. Reviewed the FY 2012 ROI calculations for IRS enforcement program areas to
          determine how the estimates were calculated.
II.    Determined the progress made by the IRS in calculating and reporting the actual ROI
       provided by its funded enforcement initiatives.
       A. Interviewed key management personnel to determine what actions have been taken
          that would allow the IRS to track and report actual ROI data from enforcement
          initiatives.
       B. Interviewed CFO management to determine whether they had implemented or
          planned to implement upgrades to necessary systems to perform the more detailed
          accounting processes required to supply actual ROI information.
       C. Reviewed whether the IRS had developed performance goals, interim milestones,
          completion dates, expectations for system updates, or other plans to allow it to report
          on actual ROI associated with enforcement initiatives requested in budget
          submissions.
       D. Assessed the status of the IRS’s efforts in developing actual ROI data that could be
          used to report to stakeholders, such as plans to include in its FY 2014 budget report


                                                                                           Page 8
                       The Use of Return on Investment Information in Managing Tax
                               Enforcement Resources Could Be Improved



                actual ROI data achieved from prior enforcement initiatives funded by past budget
                requests.
           E. Judgmentally1 selected the largest single initiative from the IRS’s FY 2010 budget
              request and interviewed applicable IRS management to determine any steps taken to
              calculate revenues based on the initiative. We selected the largest initiative among
              four total initiatives in the FY 2010 budget request to maximize our use of available
              audit resources.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s plans and actions taken to
measure actual revenues related to individual enforcement initiatives and the use of ROI
statistics in annual resource allocation planning. We evaluated these controls by interviewing
management, assessing IRS policy documents, and reviewing IRS calculations of ROI for
enforcement programs.
Data reliability
We evaluated the reliability of the IRS’s FY 2012 ROI statistics by reviewing the mathematical
accuracy of the calculations and comparing reported enforcement revenue to the annual
enforcement service results publicly reported by the IRS. We did not identify any significant
inconsistencies that would affect the substance of our findings and, as such, consider the data
sufficiently reliable for the purposes of this report. However, as discussed in the report, the
individual FY 2012 cost/benefit calculations provide an incomplete picture of the actual results
of these programs which adversely impacts the usefulness of this data to end users. For example,
the process for developing these cost/benefit calculations does not consider enforcement revenue
collected in instances where the assessment was collected during the balance due notice or
Appeals process.




1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.


                                                                                                                 Page 9
               The Use of Return on Investment Information in Managing Tax
                       Enforcement Resources Could Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan Meyer, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
James S. Mills, Jr., Senior Auditor
Michele Strong, Senior Auditor




                                                                                    Page 10
                The Use of Return on Investment Information in Managing Tax
                        Enforcement Resources Could Be Improved



                                                                              Appendix III

                          Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Chief Financial Officer OS:CFO
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis and Statistics RAS
Director, Office of Research RAS:R
Associate Chief Financial Officer for Corporate Budget OS:CFO:CB
Associate Chief Financial Officer for Financial Management OS:CFO:FM
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Planning Analysis Inventory and Research, Large Business and International Division
SE:LB:P
Director, Collection Analytics, Automation, Inventory Selection and Delivery, Small
Business/Self-Employed Division SE:S:CS:CAISD
Director, Enterprise Collection Planning and Governance, Small Business/Self-Employed
Division SE:S:CS:P&G
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Office of Research, Analysis, and Statistics RAS




                                                                                       Page 11
    The Use of Return on Investment Information in Managing Tax
            Enforcement Resources Could Be Improved



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 12
The Use of Return on Investment Information in Managing Tax
        Enforcement Resources Could Be Improved




                                                       Page 13
The Use of Return on Investment Information in Managing Tax
        Enforcement Resources Could Be Improved




                                                       Page 14
The Use of Return on Investment Information in Managing Tax
        Enforcement Resources Could Be Improved




                                                       Page 15
